                                  SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-IT-IB-14-02                                  Office of Audits                                     October 2013




      Audit of the Broadcasting Board of
    Governors Information Security Program




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED
                                                              0 mted States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of lnspertor General




                                          (U) PREFACE
        (U) This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

       (U) In accordance with the Federal Information Security Management Act of 2002
(FISMA), OIG performed an audit ofthe Broadcasting Board of Governors Information Security
Program for FY 2013 . .To perform this audit, OIG contracted with the independent public
accountant Williams, Adley & Company, LLP. The audit report is based on interviews with
employees and officials of the Broadcasting Board of Governors, direct observation, and a
review of applicable documents.

       (U) The independent public accountant identified areas in which improvements could be
made, including the risk management program, continuous monitoring, contingency planning,
incident response and reporting, plans of actions and milestones, remote access management,
configuration management, identity and access management, and security training and
awareness.

       (U) OIG evaluated the nature, extent, and timing of the independent public accountant's
work; monitored progress throughout the audit; reviewed supporting documentation; evaluated
key judgments; and performed other procedures as appropriate. OIG concurs with the findings,
and the recommendations contained in the audit report were developed based on the best
knowledge available and discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

         (U) I express my appreciation to all of the individuals who contributed to the preparation
of this report.




                                       Steve A. Linick
                                       Inspector General

                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




~l Y,.. WILLIAMS
l ! J. 1 ADLEY
          Audit of the Broadcasting Board of Governors Infonnation Security Program

October 15, 2013

Office of Inspector General
U.S. Department of State
Washington, DC

Williams, Adley & Company-DC, LLP has performed an audit of the Broadcasting Board of
Govemors' (BBG) Information Security Program. We audited the BBG's compliance with the
Federal Infotmation Security Management Act, Office of Management and Budget requirements,
and National Institute of Standards and Technology standards. We performed this audit under
Contract No. SAQMMA 1OF2 159. The aud it was designed to meet the objectives described in
the repott.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the resu lts of our aud it and
the related findings and recommendations to the U.S. Department of State and the Broadcasting
Board of Governors Office oflnspector General.

We appreciate the cooperation provided by BBG personnel during the audit.


~u~~fY4, ~>l~L~ LLf
Wi lliams, Adle; &   C~ny-DC, LLP (j




                                                                                                 \




                                WILLIAMS, ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
        1030 15'" Street, NW, Suite 350 West• Washi ngton, DC 20005 • (202) 371 -1397 • Fax: (202) 371 -9161
                                             www.wllliamsadley.com




                                                              ii
                             SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


(U) Acronyms
(U) BBG        Broadcasting Board of Governors
(U) CIO        Chief Information Officer
(U) CTO        Chief Technology Officer
(U) DHS        Department of Homeland Security
(U) FIPS       Federal Information Processing Standards
(U) FISMA      Federal Information Security Management Act
(U) GAGAS      Generally Accepted Government Auditing Standards
(U) IT         Information Technology
(U) NIST       National Institute of Standards and Technology
(U) OIG        Office of Inspector General
(U) OMB        Office of Management and Budget
(U) PIV        Personal Identity Verification
(U) POA&M      Plans of Action and Milestones
(U) SP         Special Publication
(U) VPN        Virtual Private Network




                               iii
               SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED




                                                    (U) Table of Contents

(U) Section                                                                                                                         (U) Page

(U) Executive Summary ................................................................................................................. 1


(U)Background ............................................................................................................................... 2


(U) Objective .................................................................................................................................. 3


(U) Results of Audit ........................................................................................................................ 3
   (U) Finding A. Risk Management ............................................................................................. 3
   (U) Finding B. Continuous Monitoring Management ............................................................... 6
   (U) Finding C. Contingency Planning ....................................................................................... 8
   (U) Finding D. Incident Response and Reporting ..................................................................... 9
   (U) Finding E. Plans of Action and Milestones ....................................................................... 10
   (U) Finding F. Remote Access Management ........................................................................... 11
   (U) Finding G. Configuration Management ............................................................................ 13
   (U) Finding H. Identity and Access Management ................................................................... 15
   (U) Finding I. Security Training and Awareness ..................................................................... 17
   (U) Finding J. Compliance with FISMA ................................................................................. 18
(U) List of Current Year Recommendations ................................................................................. 19

(U) Appendices
   (U) A. Scope and Methodology ................................................................................................ 21
   (U) B. Followup of Recommendations from the FY 2012 Audit of the Broadcasting
          Board of Governors Information Security Program ...................................................... 25
   (U) C. Management Response .................................................................................................. 28




                                                                       iv
                                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



                                     (U) Executive Summary
        (U) In accordance with the Federal Information Security Management Act of 2002
          1
(FISMA), the Office of Inspector General (OIG) contracted with Williams, Adley & Company-
DC, LLP (referred to as “we” in this report), to perform an independent audit of the Broadcasting
Board of Governors (BBG) Information Security Program’s compliance with Federal laws,
regulations, and standards established by FISMA, the Office of Management and Budget
(OMB), and the National Institute of Standards and Technology (NIST). The results are
designed to assist OIG in providing responses to the Department of Homeland Security (DHS)
FY 2013 Inspector General Federal Information Security Management Act Reporting Metrics,
dated November 30, 2012.
                                            2
        (U) The FY 2012 FISMA report contained nine recommendations intended to address
security deficiencies, and the most significant of these deficiencies involved BBG’s security
standards and procedures, compliance enforcement authority, Plans of Action and Milestones
(POA&M), and enterprise-wide and system-specific contingency plans. We reviewed BBG’s
corrective actions to address weaknesses identified in OIG’s FY 2012 FISMA report. BBG
closed four of nine recommendations in the FY 2012 report. The status of each recommendation
from OIG’s FY 2012 report is presented in Appendix B of this report.

        (U) Since FY 2012, BBG has taken the following steps to improve management controls:

        •   (U) Substantially improved the security awareness training compliance rate
            achieving 100 percent in FY 2013.
        •   (U) Improved the management of Active Directory to limit the amount of
            expired and inactive user accounts on the domain.

       (U) Overall, we found that BBG had implemented an information security program and
had made progress during FY 2013, but we identified control weaknesses that significantly
impacted the information security program. If these control weaknesses were exploited, BBG
could experience security breaches.

        (U) Collectively, the control weaknesses we identified in this audit represent a significant
                                                          3
deficiency, as defined by OMB Memorandum M-12-20, to enterprise-wide security. The
weakened security controls could adversely affect the confidentiality, integrity, and availability
of information and information systems. A further compounding factor is that BBG had not fully
taken corrective action to remediate all of the control weaknesses identified in the FY 2012
FISMA report. This report contains 13 recommendations to address security deficiencies
identified in eleven reportable areas, and we believe the most significant security deficiencies are
the findings related to risk management framework (Finding A), continuous monitoring program
(Finding B), enterprise-wide and system-specific contingency plan (Finding C), incident

1 (U) Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
2 (U) Audit of the Broadcasting Board of Governors Information Security Program (AUD-IT-IB-13-04, Nov. 2012).
3 (U) OMB Memorandum M-12-20, FY 2012 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, Sept. 27, 2012.

                                              1
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

response and reporting program (Finding D), and the Plans of Action and Milestones (POA&M)
process (Finding E). Following is a summary of the findings:

           •
                               4          5
               (U) In FY 2010, FY 2011, FY 2012 and FY 2013, OIG reported that BBG’s risk
               management framework was not effective. (Finding A)
           •   (U) In FY 2013, OIG identified that the Office of the Chief Information Officer/Chief
               Technology Officer (CIO/CTO) did not have an overall continuous monitoring
               program for the agency. (Finding B)
           •   (U) BBG did not develop an enterprise-wide and system-specific contingency plan or
               perform any contingency testing. (Finding C)
           •   (U) BBG did not have effective incident response and reporting. (Finding D)
           •   (U) In FY 2013, OIG found that POA&M entries were not fully completed. (Finding
               E)
           •   (U) The Enterprise Networks and Storage Division, under the Office of the CIO/CTO,
               had not implemented procedures to ensure that remote access was granted only to
               computers that have security safeguards that comply with BBG’s policies and
               procedures. (Finding F)
    [Redacted] (b) (5)




           •   (U) BBG did not have effective identity and access management of their information
               systems. (Finding H)
           •   (U) BBG did not have a policy for role-based training. (Finding I)

       (U) In addition, OIG found that BBG was in compliance with the Capital Planning and
Contractor System requirements. (Finding J)

                                           (U) Background
        (U) BBG is an independent Federal agency supervising all U.S. Government-supported
civilian international media. Broadcasters within the BBG network include the Voice of
America, Radio Free Europe/Radio Liberty, the Middle East Broadcasting Networks, Radio Free
Asia, and the Office of Cuba Broadcasting. BBG’s mission is to inform, engage, and connect
people around the world in support of freedom and democracy.

        (U) With the passage of FISMA, Congress recognized the importance of information
security to the economic and national security interests of the United States and required each
Federal agency to develop, document, and implement an agency-wide program to provide
information security for the information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or source. FISMA

4 (U) Review of the Broadcasting Board of Governors Information Security Program (AUD/IT/IB-11-08, Nov.
2010).
5 (U) Evaluation of the Broadcasting Board of Governors Information Security Program (AUD/IT/IB-12-15, Nov.
2011).

                                                2
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

provides a comprehensive framework for establishing and ensuring the effectiveness of
management, operational, and technical controls over information technology (IT) that supports
Federal operations and assets, and it provides a mechanism for improved oversight of Federal
agency information security programs.

         (U) On an annual basis, OMB provides guidance with reporting categories and questions
                                                      6
to meet the current year’s reporting requirements. OMB uses responses to its questions to assist
in its oversight responsibilities and to prepare its annual report to Congress on agency
compliance with FISMA.
                                                                                                            7
        (U) FISMA assigns specific responsibilities to Federal agencies, NIST, OMB and DHS
to strengthen information system security. In particular, FISMA requires the head of each
agency to implement policies and procedures to effectively reduce IT security risks to an
acceptable level. To ensure the adequacy and effectiveness of information system controls,
FISMA requires agency program officials, chief information officers, chief information security
officers, senior agency officials for privacy, and inspectors general to conduct annual reviews of
the agency’s information security program and report the results to DHS.

                                             (U) Objective
       (U) The objective of this audit was to perform an independent evaluation of BBG’s
information security program and practices for FY 2013, which included testing the effectiveness
of security controls for a subset of systems, as required.

                                         (U) Results of Audit
        (U) Overall, we found that BBG made progress in FY 2013 toward developing its
information security program, but we identified control weaknesses that significantly impacted
the information security program. To improve the information security program and to bring the
program into compliance with FISMA, OMB, and NIST requirements, BBG needs to address the
control weaknesses described.

(U) Finding A. Risk Management
        (U) In FY 2010, FY 2011, and FY 2012, OIG identified risk management framework
deficiencies in BBG’s information security program. According to NIST Special Publication
                        8
(SP) 800-37, Revision 1, the risk management framework emphasizes:

        (U) … (i) building information security capabilities into federal information systems
        through the application of state-of-the-practice management, operational, and technical
6 (U) DHS FY 2013 Inspector General Federal Information Security Management Act Reporting Metrics, Nov.
2012.
7 (U) OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office
of the President and Department of Homeland Security (DHS), July 6, 2010.
8 (U) NIST SP 800-37, rev. 1, Guide for Applying the Risk Management Framework to Federal Information
Systems, sec. 1.1, Feb. 2010.

                                              3
                                 SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

        security controls; (ii) maintaining awareness of the security state of information systems
        on an ongoing basis though enhanced monitoring processes; and (iii) providing essential
        information to senior leaders to facilitate decisions regarding the acceptance of risk to
        organizational operations and assets, individuals, other organizations, and the Nation
        arising from the operation and use of information systems.
                                 9
      (U) NIST SP 800-39 lists the four steps of the risk management process, which are Risk
Framing, Risk Assessment, Risk Response, and Risk Monitoring.

        (U) BBG’s risk management framework was not effective. In FY 2013, OIG identified
the following deficiencies:

        •    (U) For all three systems tested, the Information Security Management Division did
             not adequately categorize system information types in the security plans. The
             Information Security Management Division identified data elements within the
                                                                                      10
             security plans as “other” instead of using NIST SP 800-60, Revision 1, elements
             such as Information System, Record Retention, and System and Network Monitoring.
             According to Federal Information Processing Standard (FIPS) 199, 11 “… the potential
             impact values assigned to the respective security objectives (confidentiality, integrity,
             availability) shall be the highest values (i.e., high water mark) from among those
             security categories that have been determined for each type of information resident on
             the information system.” Furthermore, NIST SP 800-60, Revision 1, 12 does not
             include the category “other” as a valid information type.
        •    (U) For all three systems tested, the Information Security Management Division did
             not perform annual security control assessments. NIST SP 800-53, Revision 3, 13
             states, “Subsequent to the initial authorization of the information system and in
             accordance with OMB policy, the organization assesses a subset of the security
             controls annually during continuous monitoring.”
        •    (U) For two of three systems tested, the security plans did not include NIST SP 800-
             53, Revision 3, controls. OMB M-10-15 14 states, “For legacy information systems,
             agencies are expected to be in compliance with NIST standards and guidelines within
             one year of the publication date unless otherwise directed by OMB. The one year
             compliance date for revisions to NIST publications applies only to the new and/or
             updated material in the publications. For information systems under development or
             for legacy systems undergoing significant changes, agencies are expected to be in
             compliance with the NIST publications immediately upon deployment of the
             information system.”

9 (U) NIST SP 800-39, Managing Information Security Risk, app. E, March 2011.
10 (U) NIST SP 800-60, rev. 1, Volume II: Appendices to Guide for Mapping Types of Information and Information
Systems to Security Categories, Aug. 2008.
11 (U) FIPS 199, Standards for Security Categorization of Federal Information and Information Systems, Feb. 2004.
12 (U) NIST SP 800-60, rev. 1, sec. C.3.5, Information and Technology Management.
13 (U) NIST SP 800-53, rev. 3, Recommended Security Controls for Federal Information Systems, CA-2 Security
Assessments, Aug. 2009 (last updated May 2010).
14 (U) OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, Section NIST Standards and Guidelines, April 2010.

                                                  4
                                     SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


        •   (U) BBG did not complete a Privacy Impact Assessment for its Privacy Information
            Enclave. OMB M-12-20 15 states, “Although neither Section 208 of the E-
            Government Act, nor OMB's implementing guidance mandate agencies conduct
            [privacy impact assessments] on electronic systems containing information about
            Federal employees (including contractors), OMB encourages agencies to scrutinize
            their internal business processes and the handling of identifiable information about
            employees to the same extent they scrutinize processes and information handling
            procedures involving information collected from or about members of the public
            (OMB Memorandum 03-22, Section ILB.3.a.).”

        (U) According to a BBG management official, BBG had to focus on daily operations
instead of devoting resources to implementing a risk management framework for its information
systems. System Owners, Information Owners, and the CIO/CTO did not perform the data
categorization for BBG’s systems. In addition, BBG management stated that the security
authorization automated system caused inaccurate data elements to be transferred over to the
security authorization packages. Finally, System Owners and the CIO/CTO used the outdated
                              16
NIST SP 800-53, Revision 2, controls, instead of the most current NIST SP 800-53, Revision 3,
controls, to conduct the security authorization process.

         (U) Without a risk management program, BBG cannot prioritize, assess, respond to, and
monitor information security risk, which leaves BBG vulnerable to outside attacks and insider
threats.

        (U) Recommendation 1. OIG recommends that the System Owners, Information
        Owners, and the Chief Information Officer/Chief Technology Officer assess the data
        categorization for information systems, in accordance with Federal Information
        Processing Standard 199, and implement the corresponding National Institute of
        Standards and Technology Special Publication 800-53, Revision (Rev.) 3, controls, if
        necessary.

        (U) Management Response: BBG concurred with the recommendation, stating that it
        will ensure that all FISMA systems are properly categorized and have implemented all
        the necessary security controls provided in NIST SP 800-53, Revision 3.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that all
        FISMA systems are properly categorized and all necessary NIST SP 800-53, Revision 3,
        security controls are implemented.

        (U) Recommendation 2. OIG recommends that the System Owners and Chief
        Information Officer/Chief Technology Officer prioritize resources to perform security
        impact analyses to assess the differences in National Institute of Standards and



15 (U) OMB Memorandum M-12-20, Sept. 27, 2012.
16 (U) NIST SP 800-53, rev. 2, Recommended Security Controls for Federal Information Systems, Dec. 2007.


                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        Technology Special Publication 800-53, Revision 3, control families and their impact to
        the state of security on the systems and reauthorize the systems.

        (U) Management Response: BBG concurred with the recommendation, stating that it
        will update Security Assessment Reports and Risk Assessment Reports for all BBG
        FISMA systems to ensure that all systems can be reauthorized.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that all
        FISMA system Security Assessment Reports and Risk Assessment Reports have been
        updated.

        (U) Recommendation 3. OIG recommends that the Broadcasting Board of Governors
        prioritize resources to perform a privacy impact assessment for the Privacy Information
        Enclave in accordance with Office of Management and Budget Memorandum M-12-20.

        (U) Management Response: BBG concurred with the recommendation, stating that the
        Chief Information Officer will prioritize resources to ensure that a privacy impact
        analysis is performed for the Privacy Information Enclave.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that a
        privacy impact analysis has been performed for the Privacy Information Enclave.

(U) Finding B. Continuous Monitoring Management
                                 17
       (U) NIST SP 800-137 states, “Information security continuous monitoring is
maintaining ongoing awareness of information security, vulnerabilities, and threats to support
organizational risk management decisions.”
                                      18
        (U) According to OMB guidance, “A well designed and well managed continuous
monitoring program can effectively transform an otherwise static and occasional security control
assessment and risk determination process into a dynamic process that provides essential, near
real time security status related information” to senior leaders. Senior leaders can use this
information to take “appropriate risk mitigation actions and make cost effective, risk based
decisions regarding the operation of their information systems.”

       (U) In FY 2013, OIG found that although the Office of the CIO/CTO was in the process
of implementing a continuous monitoring program with the acquisition of automated tools for
vulnerability assessment and patch management, they did not have an overall continuous
monitoring program for the agency. Specifically, the continuous monitoring program did not


17 (U) NIST SP 800-137, Information Security Continuous Monitoring for Federal Information Systems and
Organizations, Executive Summary, Sept. 2011.
18 (U) OMB, Fiscal Year 2010 Report to Congress on the Implementation of The Federal Information Security
Management Act of 2002, sec. A. Continuous Monitoring and Remediation, March 2010.

                                              6
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

address the assessment of selected security controls (including system-specific, hybrid, and
common controls).
                                                               19
       (U) According to NIST SP 800-53, Revision 3, the organization establishes a continuous
monitoring strategy and implements a continuous monitoring program that includes a
configuration management process, security impact analysis, ongoing security control
assessment, and reporting the security state of the system to appropriate organizational officials.

        (U) According to a BBG management official, the CIO/CTO in coordination with the
Information Security Management Division had to focus on daily operations instead of
prioritizing resources to implement a continuous monitoring program strategy. Therefore, the
agency did not finalize an enterprise-wide continuous monitoring program strategy to assist
system owners in evaluating various control deficiencies.

       (U) Not having a robust continuous monitoring program prevents an organization from
understanding the security state of the information system over time. It also prevents the
organization from effectively monitoring a dynamic network environment with changing threats,
vulnerabilities, technologies, missions, and business functions. Without a well-designed and
well-managed continuous monitoring program, potential damage to the agency systems could
occur which may result in system downtime, data manipulation/loss, or operational failure.

          (U) Recommendation 4. OIG recommends that the Chief Information Officer/Chief
          Technology Officer, in coordination with the Information Security Management
          Division, finalize and implement an enterprise-wide continuous monitoring strategy that
          includes a continuous monitoring policy and assesses the security state of information
          systems in a manner consistent with Federal Information Security Management Act
          requirements, Office of Management and Budget policy, and applicable National Institute
          of Standards and Technology guidelines.

          (U) Management Response: BBG concurred with the recommendation, stating that it is
          reviewing NIST SP 800-53, Revision 4, guidance and planned to implement the new
          features of the guidance in its continuous monitoring program, policies, and procedures.
          In addition, BBG stated that its participation in the Continuous Diagnostic Mitigation
          program sponsored by the Department of Homeland Security will strengthen its internal
          monitoring controls.

          (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation or evidence showing that
          BBG has implemented features of NIST SP 800-53, Revision 4, as it relates to its
          continuous monitoring program.




19   (U) NIST SP 800-53, rev. 3, CA-7 Continuous Monitoring.

                                                7
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


(U) Finding C. Contingency Planning
        (U) In FY 2010, FY 2011, and FY 2012, OIG reported that BBG did not develop and
implement contingency planning and testing policies and procedures compliant with NIST
requirements. Specifically, BBG did not complete its enterprise-wide and system-specific
                                                                               20
contingency plans or conduct contingency tests. NIST SP 800-34, Revision 1, states,
“contingency planning refers to interim measures to recover information system services after a
disruption. Interim measures may include relocation of information systems and operations to an
alternate site, recovery of information system functions using alternate equipment, or
performance of information system functions using manual methods.”

         (U) In FY 2013, OIG concluded that BBG had not developed an enterprise-wide and
system-specific contingency plan or performed any contingency testing. According to NIST SP
                     21
800-34, Revision 1, the document defines the following seven-step contingency process that an
agency may apply to develop and maintain a viable contingency planning program for BBG’s IT
systems: “(a) develop a contingency planning policy statement, (b) conduct a business impact
analysis, (c) identify preventive controls, (d) create contingency strategies, (e) develop an
information system contingency plan, (f) ensure plan testing, training, exercises, and (g) ensure
                                                                        22
plan maintenance.” Also, according to NIST SP 800-53, Revision 3, the organization develops
a contingency plan for the information system that: identifies essential missions and business
functions and associated contingency requirements; provides recovery objectives, restoration
priorities, and metrics; addresses contingency roles, responsibilities, assigned individuals with
contact information; addresses maintaining essential missions and business functions despite an
information system disruption, compromise, or failure; addresses eventual, full information
system restoration without deterioration of the security measures originally planned and
implemented; and is reviewed and approved by designated officials within the organization.
                                              23
According to NIST SP 800-53, Revision 3, the organization “… tests and/or exercises the
contingency plan for the information system.”

        (U) According to a BBG management official, BBG’s Office of the CIO/CTO had to
focus on daily operations instead of devoting resources to developing the contingency plans and
testing for BBG information systems. However, without an effective contingency plan, BBG
may be unable to access critical information and resources and perform mission critical business
functions in the event of an extended outage and/or disaster. As a result, BBG may be unable to
resume operations in an efficient and effective manner. BBG could not reconstitute operations if
there was an extended outage and/or disaster.

        (U) Recommendation 5. OIG recommends that the Chief Information Officer/Chief
        Technology Officer prioritize resources to complete entity-wide and system specific
        contingency planning documents for all information systems and conduct necessary


20 (U) NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems, Executive Summary,
May 2010.
21 (U) Ibid, p. V.
22 (U) NIST SP 800-53, rev. 3, CP-1 Contingency Planning Policy and Procedures and CP-2 Contingency Plan.
23 (U) Ibid., CP-4 Contingency Planning Testing and Exercise.


                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

          testing in accordance with National Institute of Standards and Technology (NIST)
          Special Publication (SP) 800-34, Revision 1, and NIST SP 800-53, Revision 3.

          (U) Management Response: BBG concurred with the recommendation, stating that its
          Disaster Recovery and Business Continuity Manager will continue the development and
          planning of entity-wide and system specific contingency plans.

          (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation or evidence showing a
          complete entity-wide contingency plan and system specific contingency plans and testing
          results.

(U) Finding D. Incident Response and Reporting
        (U) In FY 2010, FY 2011, and FY 2012, OIG identified security incident program
deficiencies in BBG’s information security program. According to NIST SP 800-61, Revision
  24
2, incident response capability is necessary for rapidly detecting incidents, minimizing loss and
destruction, mitigating the weaknesses that were exploited, and restoring IT services. In April
2013, BBG implemented RedMine as its primary incident tracking tool, which should increase
detection, and reporting capabilities within the agency.

        (U) In FY 2013, OIG noted that BBG did not have effective incident response and
reporting. Specifically, BBG’s Computer Security Incident Management Policy did not have all
of the following components in its incident response life cycle:

          •    (U) Preparation.
          •    (U) Detection and Analysis.
          •    (U) Containment, Eradication and Recovery.
          •    (U) Post-Incident Activity.

       (U) According to a BBG management official, BBG’s Information Security Management
Division had focused on daily operations instead of prioritizing resources to review a
comprehensive incident response policy that was compliant with Federal regulations. According
                               25
to NIST SP 800-61, Revision 2, establishing an incident response capability should include the
following actions:

          •    (U) Creating an incident response policy and plan.
          •    (U) Developing procedures for performing incident handling and reporting.
          •    (U) Setting guidelines for communicating with outside parties regarding incidents.
          •    (U) Selecting a team structure and staffing model.




24   (U) NIST SP 800-61, rev. 2, Computer Security Incident Handling Guide, Executive Summary, Aug. 2012.
25   (U) Ibid.

                                                9
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


        •   (U) Establishing relationships and lines of communication between the incident
            response team and other groups, both internal (e.g., legal department) and external
            (e.g., law enforcement agencies).
        •   (U) Determining what services the incident response team should provide.

        (U) BBG may not be detecting, identifying, containing, eradicating, and recovering from
security incidents. Lack of incident response and reporting could result in a shutdown of BBG
information systems, which would affect its operational mission.

        (U) Recommendation 6. OIG recommends that the Information Security Management
        Division update and implement its incident response policy in accordance with National
        Institute of Standards and Technology Special Publication 800-61, Revision 2.

        (U) Management Response: BBG concurred with the recommendation, stating that it
        will update and implement the incident response policy.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        BBG’s incident response policy has been updated and implemented in accordance with
        NIST SP 800-61, Revision 2.

(U) Finding E. Plans of Action and Milestones
       (U) In FY 2010, FY 2011, and FY 2012, OIG identified POA&M deficiencies in BBG’s
information security program. In FY 2013, OIG found that POA&M entries were not fully
                                                    26
completed. According to NIST SP 800-64, Revision 2,

        (U) A POA&M is “A document that identifies tasks needing to be accomplished. It
        details resources required to accomplish the elements of the plan, any milestones in
        meeting the tasks, and scheduled completion dates for the milestones. The purpose of the
        POA&M is to assist agencies in identifying, assessing, prioritizing, and monitoring the
        progress of corrective efforts for security weaknesses found in programs and systems.”

        (U) BBG’s Office of the CIO/CTO had a deficient POA&M process. BBG failed to
                           27
adhere to its own policy of completing all the necessary elements of a POA&M. OIG found
that for five of five (100 percent) systems tested in the POA&M database, BBG did not
adequately assign resources (including resource hours), add expected time for completion or add
milestone completion dates to remediate the security weaknesses and severity ratings for each
corrective action (i.e., significant deficiency, reportable condition, or other).

       (U) According to a BBG management official, BBG’s Office of the CIO/CTO had to
focus on daily operations instead of devoting resources to adhere to its POA&M policy.

26(U) NIST SP 800-64, rev. 2, Security Considerations in the System Development Life Cycle, Oct. 2008.
27(U) Information Security Plan of Action and Milestone (POA&M) Policy, May 2, 2010 (last updated Feb. 9,
2012).

                                             10
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

         (U) BBG management will not have an accurate account of all system vulnerabilities, nor
will it be able to adequately prioritize resources to remediate identified vulnerabilities. As a
result, delays in the implementation of corrective actions may persist and leave information
systems vulnerable to outside attacks and insider threats.

          (U) Recommendation 7. OIG recommends the Chief Information Officer/Chief
          Technology Officer ensure that Broadcasting Board of Governors Plans of Action and
          Milestones (POA&M) include all required elements in accordance with its Information
          Security POA&M Policy, to include severity of the weakness, responsible organization,
          estimated funding resources, completion date, key milestones and changes, source of the
          weakness, and the status.

          (U) Management Response: BBG concurred with the recommendation, stating that the
          Chief Information Officer will update the elements within their POA&M tracking sheet
          in an ongoing effort to improve internal information technology project governance.

          (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation or evidence showing that
          BBG has updated its POA&M tracking sheet with the required elements.

(U) Finding F. Remote Access Management
        (U) In FY 2010, FY 2011, and FY 2012, OIG identified remote access deficiencies in
BBG’s information security program. BBG’s remote access Virtual Private Network (VPN)
agreement allows users to access the BBG network using personally owned computers. In
addition, the VPN Agreement requires each user to have anti-virus software with up-to-date virus
definitions. Additionally, BBG had not implemented procedures to ensure that remote access
was granted only to computers that have proper security safeguards. According to OMB M-06-
   28
16, the agency owned mobile computers use multifactor authentication and hard drive
encryption to compensate for the lack of physical security controls when information is removed
                                                                                               29
from or accessed from outside the BBG location. According to NIST SP 800-53, Revision 3,
“Multifactor authentication is authentication using two or more factors to achieve authentication.
Factors include: (i) something you know; (ii) something you have; or (iii) something you are.”

       (U) The Enterprise Networks and Storage Division, under the Office of the CIO/CTO,
had not implemented procedures to ensure that remote access was granted only to computers that
have security safeguards that comply with BBG’s policies and procedures.

          (U) From a sample of 25 remote users tested, we identified the following deficiencies:

          •   (U) One user did not have an appropriate access authorization form completed.
          •   (U) Four users did not sign rules of behavior agreement form prior to gaining remote
              access.

28 (U)   OMB Memorandum M-06-16, Protection of Sensitive Agency Information, June 23, 2006.
29   (U) NIST SP 800-53, rev. 3, app. B, Glossary.

                                              11
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

       (U) According to a BBG management official, BBG’s Enterprise Networks and Storage
Division, under the Office of the CIO/CTO, had to focus on daily operations instead of devoting
resources to implement remote access controls. In addition, BBG did not consider the
information stored on removable media to be sensitive.

        (U) BBG’s VPN Agreement states, “By using VPN technology with personal equipment,
users must understand that their computers are a de facto extension of the BBG network and
subject to the same rules and regulations that apply to BBG-owned equipment, i.e., their
computers must be configured to comply with BBG security requirements.” The agreement
further states, “All computers connected to the BBG network via VPN must use up-to-date virus-
                                                                         30
scan and virus definitions.” According to NIST SP 800-53, Revision 3,

          (U) “The organization: (a) Documents allowed methods of remote access to the
          information system; (b) Establishes usage restrictions and implementation guidance for
          each allowed remote access method; (c) Monitors for unauthorized remote access to the
          information system; (d) Authorizes remote access to the information system prior to
          connection; and (e) Enforces requirements for remote connections to the information
          system.”

        (U) Without procedures that require the use of properly secured devices, BBG may be
unable to ensure the security of its data and network when allowing access to authorized third-
party devices. The risks of introducing viruses, worms, or other malicious code into BBG’s
enterprise network are increased significantly resulting in a potential loss of data and/or
compromise of agency systems. Weak remote access controls could allow hackers access to the
network and insider threats could not be uniquely identified resulting in data spillage or system
destruction.

          (U) Recommendation 8. OIG recommends that the Enterprise Networks and Storage
          Division, under the Office of the Chief Information Officer/Chief Technology Officer,
          implement procedures to assess the adequacy of the security configurations of mobile
          computers that request access to the Broadcasting Board of Governors network and grant
          access only to properly configured and patched devices in accordance with National
          Institute of Standards and Technology Special Publication 800-53, Revision 3.

          (U) Management Response: BBG concurred with the recommendation, stating that it
          had acquired a network access control management tool and configuration of the tool is
          pending.

          (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation or evidence showing that
          that the network access control management tool had been configured and implemented.




30   (U) Ibid., AC-17 Remote Access.

                                               12
                                   SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


    (U) Finding G. Configuration Management
           (U) OIG first reported in FY 2010 that BBG had not completed the development of
    procedures that govern routine and critical security configuration management processes.
                                    31
    According to NIST SP 800-128,

             (U) “Configuration management comprises a collection of activities focused on
             establishing and maintaining the integrity of products and systems, through control of the
             processes for initializing, changing, and monitoring the configurations of those products
             and systems.” Further, security-focused configuration management “… is the
             management and control of secure configurations for an information system to enable
                                                              32
             security and facilitate the management of risk.”

            (U) In FY 2013, BBG implemented an entity-wide software deployment policy to
    strengthen its configuration management process. However, BBG was still in the process of
    gathering system information for the development of its standard security baseline
    configurations. [Redacted] (b) (5)

[Redacted] (b) (5)




                                                  33
            (U) NIST SP 800-53, Revision 3, states that the organization establishes and documents
    mandatory configuration settings for information technology products employed within the
    information system using organization-defined security configuration checklists that reflect the
    most restrictive mode consistent with operational requirements; and identifies, documents, and
    approves exceptions from the mandatory configuration settings for individual components within
    the information system based on explicit operational requirements. NIST SP 800-53, Revision
      34
    3, also states, the organization identifies, reports, and corrects information system flaws.

            (U) According to a BBG management official, BBG’s IT management had to focus on
    daily operations instead of devoting resources to developing procedures and guidance for
    configuration management processes. OIG’s vulnerability assessment was conducted at a time


    31 (U) NIST SP 800-128, Guide for Security-Focused Configuration Management of Information Systems, 2.1.1,
    Aug. 2011.
    32 (U) Ibid., 2.1.3.
    33 (U) NIST SP 800-53, rev. 3, CM-6 Configuration Settings.
    34 (U) Ibid., SI-2 Flaw Remediation.


                                                 13
                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

when BBG was switching patching tools. [Redacted] (b) (5)


        (U) Without proper implementation of policy and procedures that govern the
performance of routine and critical processes, BBG leaves its systems vulnerable to the denial of
service, damage to the general support system, or the potential introduction of security
weaknesses. Potential damage to BBG systems could occur, which may result in system
downtime, data manipulation/loss, or operational failure.

       (U) Recommendation 9. OIG recommends that the Chief Information Officer/Chief
       Technology Officer verify that U.S. Government Configuration Baseline configuration
       standards are implemented and compliance with the implemented standards is
       periodically assessed in accordance with National Institute of Standards and Technology
       Special Publication 800-53, Revision 3.

       (U) Management Response: BBG concurred with the recommendation, stating that it
       planned to use monitoring technology made available through the Department of
       Homeland Security’s Continuous Diagnostic Mitigation program to verify the
       implementation and compliance of configuration standards in accordance with NIST SP
       800-53, Revision 3.

       (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and accepts documentation or evidence showing that
       BBG has implemented U.S. Government Configuration Baseline standards and periodic
       compliance assessment is performed.

       (U) Recommendation 10. OIG recommends that the Chief Information Officer/Chief
       Technology Officer follow the Broadcasting Board of Governors Change Management
       Policy, to “test and disseminate Microsoft operating system and application patches
       released on the second Tuesday of each month in a way that ensures complete coverage
       of workstations and laptops while avoiding operational downtime by rigorously testing
       the patches prior to general release to ensure application compatibility and seamless
       functionality.”

       (U) Management Response: BBG concurred with the recommendation, stating that it
       planned to use monitoring technology made available through the Department of
       Homeland Security’s Continuous Diagnostic Mitigation program to address the monthly
       vulnerabilities on workstations and servers.

       (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and accepts documentation or evidence showing that
       critical patches have been implemented to address operating system and application
       vulnerabilities.




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


      (U) Finding H. Identity and Access Management
              (U) In FY 2010, FY 2011, and FY 2012, OIG identified deficiencies in BBG’s identity
      and access management of Active Directory accounts. Identification and authentication is
      typically the first line of defense and used as a technical measure to prevent unauthorized access
                                                                  35
      to systems. Homeland Security Presidential Directive 12 is the policy of the United States to
      enhance security, increase Government efficiency, reduce identity fraud, and protect personal
      privacy by establishing a mandatory, Government-wide standard for secure and reliable forms of
      identification issued by the Federal Government to its employees and contractors (including
      contractor employees). The Office of Cuba Broadcasting accounts were not included in our test
      review because of migration to the Microsoft Office 365 email system. These accounts were
      segregated by BBG and undergoing maintenance due to the migration.

              (U) In FY 2013, OIG found that although BBG had made significant improvements of
      managing its Active Directory accounts, they still did not have effective identity and access
      management of their information systems. Specifically, in FY 2013, excluding all accounts
      undergoing migration at Office of Cuba Broadcasting, we observed the following control
      deficiencies that had not been addressed by BBG’s System Owners:
[Redacted] (b) (5)




              (U) Although the control deficiencies identified are minor in scale, they should be
      promptly addressed because the weakest security point is where BBG is vulnerable to attack.
      BBG management should develop a process that considers the identified Active Directory
      vulnerabilities when developing or updating its identity and access management strategy and
      policy.

             (U) In addition, only 65 of 2,280 (3 percent) employees and contractors were issued
      Personal Identity Verification (PIV) cards as of March 2013.

              (U) According to the BBG's Identification and Authentication Policy and Password
      Policy, system owners are responsible for implementing the policy and procedures for their IT
      systems, including:


      35(U) HSPD-12, Policy for a Common Identification Standard for Federal Employees and Contractors, Aug. 27,
      2004.

                                                   15
                                       SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


           •     (U) Monitoring and taking actions to create and delete accounts.
           •     (U) Creating processes to change user account passwords every 90 days.
           •     (U) Creating processes to disable separating/terminating user accounts within 24
                 hours of notification, and removing these disabled accounts within a week of
                 notification, unless the Security Manager determines that removing the disabled
                 account would adversely affect operations.
           •     (U) Creating processes to review, quarterly, the use of guest, test, and shared
                 accounts, and report such accounts and their justification to the Chief Information
                 Security Officer. Unneeded accounts shall be disabled and/or deleted whenever
                 possible.
                                                              36
         (U) Homeland Security Presidential Directive 12 mandates a Federal standard for secure
and reliable forms of identification. According to item four of the directive, the heads of
executive departments and agencies shall ”require the use of identification by Federal employees
and contractors that meets the Standard in gaining physical access to Federally controlled
facilities and logical access to Federally controlled information systems.”

        (U) System Owners did not utilize their resources to update Active Directory user
accounts based on the results from the bi-weekly automated script. In addition, PIV cards were
not put in place because BBG purchased a Commercial Off the Shelf product in 2006 that was
not compatible with their legacy security system until March 2013, which prevented the use of
PIV cards within the agency.

        (U) Without effective identity and access management, the risk of unauthorized access is
significantly increased. Unauthorized access may result in the submission of false transactions,
improper access to and dissemination of confidential data, and other malicious activities.
Passwords can be easily hacked resulting in unauthorized access of BBG’s information systems.

           (U) Recommendation 11. OIG recommends that the Chief Information Officer/Chief
           Technology Officer and System Owners ensure that user accounts are properly
           maintained in accordance with Broadcasting Board of Governors (BBG) Identification
           and Authentication Policy and the BBG/IBB/VOA Password Policy.

           (U) Management Response: BBG concurred with the recommendation, stating that the
           Chief Information Officer and System Owners will work together to strengthen
           information technology processes for managing user accounts to ensure that accounts are
           effectively managed in accordance with BBG’s policies.

           (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts documentation or evidence showing that
           accounts are effectively managed in accordance with BBG’s policies.

           (U) Recommendation 12. OIG recommends that the Office of Security, in coordination
           with the Chief Information Officer/Chief Technology Officer, complete the issuance of

36   (U) Ibid.

                                               16
                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

         Personal Identity Verification cards as required by Homeland Security Presidential
         Directive 12.

         (U) Management Response: BBG concurred with the recommendation, stating that it
         will accelerate issuance of Personal Identification Verification cards to employees and
         contractors as much as practical within budget constraints. The Chief Information
         Officer will continue to assess progress and develop extensions into logical access
         control.

         (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
         can be closed when OIG reviews and accepts documentation or evidence showing that
         the Office of Security has completed the issuance of Personal Identification Verification
         cards to employees and contractors.

(U) Finding I. Security Training and Awareness
        (U) In FY 2013, OIG found that although BBG had made progress over the past two
years to bring Security Awareness training compliance from 25 percent to 100 percent in FY
                                                                          37
2013, it still did not have a policy for role-based training. NIST 800-16 states, “Federal
agencies and organizations cannot protect the integrity, confidentiality, and availability of
information in today’s highly networked systems environment without ensuring that each person
involved understands their roles and responsibilities and is adequately trained to perform them.”

          (U) Although the Information Security Management Division revised its security
awareness-training program in July 2012 to include both online and in-person training, it did not
have a policy for role-based training. Therefore, key IT personnel with security responsibilities
had not taken specialized role-based security training. According to NIST SP 800-53, Revision
3, 38 the organization provides role-based security-related training before authorizing access to the
system or performing assigned duties and the frequency of training thereafter is organizationally-
defined.

        (U) According to a BBG management official, BBG’s Information Security Management
Division had to focus on daily operations instead of devoting resources to developing a policy
and ensuring key personnel with security responsibilities receive adequate role-based
(specialized) training.

        (U) Without the completion of role-based annual security training, IT and security
personnel may be unaware of new risks that may compromise the confidentiality, integrity, and
availability of data. Users could compromise the security of the network resulting in a loss of
operations, compromise of Personally Identifiable Information and introduction of vulnerabilities
to the system.



37 (U) NIST SP 800-16, Information Technology Security Training Requirements: A Role- and Performance-Based
Model, sec. 1.1, Apr. 1998.
38 (U) NIST SP 800-53, rev. 3, AT-3.


                                            17
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       (U) Recommendation 13. OIG recommends that the Information Security Management
       Division, in coordination with the Chief Information Officer/Chief Technology Officer,
       prioritize resources to develop and implement a role-based security training program in
       accordance with National Institute of Standards and Technology Special Publication 800-
       53, Revision 3.

       (U) Management Response: BBG concurred with the recommendation, stating that it
       will take steps to develop and implement a role-based information technology security
       program in accordance with NIST Guidance.

       (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and accepts documentation or evidence showing that
       BBG has implemented a role-based information technology security program.

(U) Finding J. Compliance with Federal Information Security Management
Act Requirements
       (U) In FY 2013, OIG found that BBG was in compliance with the Capital Planning and
Contractor System requirements. There were no prior year weaknesses that carried over to FY
2013 for these two areas.

       (U) For Contractor Systems, we noted that the agency had established a program to
oversee systems operated on its behalf by contractors or other entities, including organization
systems and services residing in the cloud external to the agency.

        (U) For Capital Planning, there have been no major IT investments or capital investments
funding for the year. However, OIG suggests the Chief Information Officer/Chief Technology
Officer implement processes and procedures to cross-reference POA&M information, including
costs, to the capital planning budget process with a Unique Investment Identifier for any future
IT acquisitions.




                                          18
                              SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


             (U) List of Current Year Recommendations
(U) Recommendation 1. OIG recommends that the System Owners, Information
Owners, and the Chief Information Officer/Chief Technology Officer assess the data
categorization for information systems, in accordance with Federal Information
Processing Standard 199, and implement the corresponding National Institute of
Standards and Technology Special Publication 800-53, Revision 3, controls, if necessary.

(U) Recommendation 2. OIG recommends that the System Owners and Chief
Information Officer/Chief Technology Officer prioritize resources to perform security
impact analyses to assess the differences in National Institute of Standards and
Technology Special Publication 800-53, Revision 3, control families and their impact to
the state of security on the systems and reauthorize the systems.

(U) Recommendation 3. OIG recommends that the Broadcasting Board of Governors
prioritize resources to perform a privacy impact assessment for the Privacy Information
Enclave in accordance with Office of Management and Budget Memorandum M-12-20.

(U) Recommendation 4. OIG recommends that the Chief Information Officer/Chief
Technology Officer, in coordination with the Information Security Management
Division, finalize and implement an enterprise-wide continuous monitoring strategy that
includes a continuous monitoring policy and assesses the security state of information
systems in a manner consistent with Federal Information Security Management Act
requirements, Office of Management and Budget policy, and applicable National Institute
of Standards and Technology guidelines.

(U) Recommendation 5. OIG recommends that the Chief Information Officer/Chief
Technology Officer prioritize resources to complete entity-wide and system specific
contingency planning documents for all information systems and conduct necessary
testing in accordance with National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-34, Revision 1, and NIST SP 800-53, Revision 3.

(U) Recommendation 6. OIG recommends that the Information Security Management
Division update and implement its incident response policy in accordance with National
Institute of Standards and Technology Special Publication 800-61, Revision 2.

(U) Recommendation 7. OIG recommends the Chief Information Officer/Chief
Technology Officer ensure that Broadcasting Board of Governors Plans of Action and
Milestones (POA&M) include all required elements in accordance with its Information
Security POA&M Policy, to include severity of the weakness, responsible organization,
estimated funding resources, completion date, key milestones and changes, source of the
weakness, and the status.

(U) Recommendation 8. OIG recommends that the Enterprise Networks and Storage
Division, under the Office of the Chief Information Officer/Chief Technology Officer,
implement procedures to assess the adequacy of the security configurations of mobile


                                 19
                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

computers that request access to the Broadcasting Board of Governors network and grant
access only to properly configured and patched devices in accordance with National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Recommendation 9. OIG recommends that the Chief Information Officer/Chief
Technology Officer verify that U.S. Government Configuration Baseline configuration
standards are implemented and compliance with the implemented standards is
periodically assessed in accordance with National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

(U) Recommendation 10. OIG recommends that the Chief Information Officer/Chief
Technology Officer follow the Broadcasting Board of Governors Change Management
Policy, to “test and disseminate Microsoft operating system and application patches
released on the second Tuesday of each month in a way that ensures complete coverage
of workstations and laptops while avoiding operational downtime by rigorously testing
the patches prior to general release to ensure application compatibility and seamless
functionality.”

(U) Recommendation 11. OIG recommends that the Chief Information Officer/Chief
Technology Officer and System Owners ensure that user accounts are properly
maintained in accordance with Broadcasting Board of Governors (BBG) Identification
and Authentication Policy and the BBG/IBB/VOA Password Policy.

(U) Recommendation 12. OIG recommends that the Office of Security, in coordination
with the Chief Information Officer/Chief Technology Officer, complete the issuance of
Personal Identity Verification cards as required by Homeland Security Presidential
Directive 12.

(U) Recommendation 13. OIG recommends that the Information Security Management
Division, in coordination with the Chief Information Officer/Chief Technology Officer,
prioritize resources to develop and implement a role-based security training program in
accordance with National Institute of Standards and Technology Special Publication 800-
53, Revision 3.




                                 20
                     SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                           (U) Appendix A

                                   (U) Scope and Methodology
        (U) In order to fulfill its responsibilities related to the Federal Information Security
                                        1
Management Act of 2002 (FISMA), the Office of Inspector General (OIG), Office of Audits,
contracted with Williams, Adley & Company-DC, LLP (referred to as “we” in this appendix), an
independent public accountant, to evaluate the Broadcasting Board of Governors (BBG)
information security program and practices to determine the effectiveness of such programs and
practices for FY 2013.

        (U) FISMA requires each Federal agency to develop, document, and implement an
agency-wide program to provide information security for the information systems that support
the operations and assets of the agency, including those provided or managed by another agency
or contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
                                                                                         2
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

       (U) We conducted the audit from April 2013 through September 2013. In addition, we
performed the audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS), FISMA, OMB, and National Institute of Standards and Technology (NIST) guidance.
GAGAS require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

       (U) We used the following laws, regulations, and policies to evaluate the adequacy of the
controls in place at BBG:

        •
                                                                           3
            (U) DHS Inspector General FISMA Reporting Metrics.
        •
                                                                      4
            (U) OMB Memoranda M-02-01, M-04-04, M-06-19, and M-12-20.


1 (U) Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
2 (U) OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office
of the President and Department of Homeland Security (DHS) July 6, 2010.
3 (U) Department of Homeland Security’s FY 2013 Inspector General Federal Information Security Management
Act Reporting Metrics, dated Nov. 30, 2012.
4 (U) OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security Plans of Action and

Milestones, Oct. 17, 2001; OMB Memorandum M-04-04, E-Authentication Guidance for Federal Agencies, Dec.
16, 2003; OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006; OMB
Memorandum M-12-20, FY 2012 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, Sept. 27, 2012.

                                             21
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


        •   (U) BBG policies and procedures, such as the BBG Computer Security
            Incident Management Policy.
        •   (U) Federal laws, regulations, and standards, such as FISMA and those
                                                             5
            contained in OMB Circular No. A-130, Revised, and OMB Circular No. A-
                6
            11.
        •   (U) NIST Special Publications, Federal Information Systems Processing
            Publications (FIPS), other applicable NIST publications, and industry best
            practices.

      (U) During our audit, we assessed BBG’s information security program policies,
procedures, and processes in the following areas:

        •    (U) Continuous monitoring management
        •    (U) Configuration management
        •    (U) Identity and access management
        •    (U) Incident response and reporting
        •    (U) Risk management
        •    (U) Security training
        •    (U) Plans of action and milestones
        •    (U) Remote access management
        •    (U) Contingency planning
        •    (U) Contractor systems
        •    (U) Security capital planning

       (U) The audit covered the period October 1, 2012, to September 30, 2013. During the
fieldwork, we took the following actions:

        •   (U) Determined the extent to which the BBG’s information security plans,
            programs, and practices complied with FISMA requirements; applicable
            Federal laws, regulations, and standards; relevant OMB Circular No. A-
            130, Revised processes and reporting requirements included in Appendix
            III; and NIST and FIPS requirements.
        •   (U) Reviewed relevant security programs and practices to report on the
            effectiveness of BBG’s agency-wide information security program in
            accordance with OMB’s annual FISMA reporting instructions. The audit
            approach addressed the DHS FY 2013 Inspector General Federal Information
            Security Management Act Reporting Metrics, dated November 30, 2012.
        •   (U) Assessed programs for monitoring of security policy and program
            compliance and responding to security events, e.g., unauthorized changes
            detected by intrusion detection systems.
        •   (U) Assessed the adequacy of internal controls related to the areas reviewed.
            Control deficiencies identified during the review are included in this report.

5 (U) OMB Circular No. A-130, Revised, Management of Federal Information Resources, app. III, Security of
Federal Automated Information Resources, Nov. 30, 2000.
6 (U) OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, Aug. 2011.


                                             22
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


       •   (U) Evaluated BBG’s remedial actions taken to address the previously
           reported information security program control weaknesses identified in OIG’s
           Audit of the Broadcasting Board of Governors Information Security Program
           (AUD/IT/IB-13-04, Nov. 2012).

(U) Review of Internal Controls

       (U) We reviewed BBG’s internal controls to determine whether:

       •   (U) The agency had established an enterprise-wide continuous monitoring
           program that assessed the security state of information systems that were
           consistent with FISMA requirements, OMB policy, and applicable NIST
           guidelines.
       •   (U) The agency had established and was maintaining a security configuration
           management program that was consistent with FISMA requirements, OMB
           policy, and applicable NIST guidelines.
       •   (U) The agency had established and was maintaining an account and identity
           management program that was generally consistent FISMA requirements,
           OMB policy, and applicable NIST guidelines and which identified users and
           network devices.
       •   (U) The agency had established and was maintaining an incident response and
           reporting program that was consistent with FISMA requirements, OMB
           policy, and applicable NIST guidelines.
       •   (U) The agency established a risk management program that was consistent
           with FISMA requirements, OMB policy, and applicable NIST guidelines.
       •   (U) The agency had established and was maintaining a security training
           program that was consistent with FISMA requirements, OMB policy, and
           applicable NIST guidelines.
       •   (U) The agency had established a POA&M program that was consistent with
           FISMA requirements, OMB policy, and applicable NIST guidelines and
           tracked and monitored known information security weaknesses.
       •   (U) The agency had established and was maintaining a remote access program
           that was generally consistent with NIST's and OMB's FISMA requirements.
       •   (U) The agency established and was maintaining an entity-wide business
           continuity/disaster recovery program that was generally consistent with
           NIST's and OMB's FISMA requirements.
       •   (U) The agency had established a program to oversee systems operated on its
           behalf by contractors or other entities, including agency systems and services
           residing in the cloud external to the agency.
       •   (U) The agency had established and maintained a capital planning and
           investment program for information security.

(U) Use of Computer-Processed Data

       (U) During the audit, we utilized computer-processed data to obtain samples and
information regarding the existence of information security controls. Specifically, we obtained

                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

data extracted from Microsoft’s Windows Active Directory and BBG’s human resources system
to test user account management controls. We assessed the reliability of computer-generated
data primarily by comparing selected data with source documents. We determined that the
information was reliable for assessing the adequacy of related information security controls.

(U) Sampling Methodology

       (U) Generally, for a population of sample items, we used judgmental sampling to test 10
percent of the population or 25, whichever is less. The 10 percent guidance is based on 10
percent of a population of 250, which equals 25. Based on the internal control structure at BBG,
we determined that the planned assessed level of control risk was MODERATE.




                                         24
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                (U) Appendix B

       (U) Followup of Recommendations from the FY 2012 Audit of the
       Broadcasting Board of Governors Information Security Program
       (U) The audit team reviewed actions implemented by management to mitigate the
findings identified in the FY 2012 audit of the Broadcasting Board of Governors (BBG)
information security program. The current status of each of the recommendations follows:

(U) Recommendation 1. We recommend that the Chief Information Officer ensure that security
configuration standards and procedures are completed, as required by the National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from FY 2012 report; this repeat recommendation has become
Recommendation 10 (Finding G) in the FY 2013 report.

(U) Recommendation 2. We recommend that the Broadcasting Board of Governors develop
and implement policies to require all agency entities with systems that connect to the
Broadcasting Board of Governors network to abide by the security policies and requirements
established by the Broadcasting Board of Governors Information Technology Department and
grant the Chief Information Officer the necessary authority to enforce consequences for
noncompliance.

(U) Status: Closed. The Certification and Accreditation Policy and Procedures were revised in
April 2013 to designate BBG’s Chief Information Officer as the Certifying Official for all Agency
Information Systems. Also, the Certification and Accreditation (C&A) Policy and Procedures
designate the CIO as the accrediting official for all agency systems.

(U) Recommendation 3. We recommend that the Chief Information Officer ensure that user
accounts are properly configured and maintained in accordance with the Broadcasting Board of
Governors policies. If the Broadcasting Board of Governors determines that exceptions to the
implemented policies may be necessary, the Broadcasting Board of Governors should identify,
assess, and document the associated risks. If the Broadcasting Board of Governors further
determines that the identified risks are acceptable, the exceptions should be documented and
approved by information technology management.

(U) Status: Closed from FY 2012 report; this repeat recommendation has become
Recommendation 12 (Finding H) in the FY 2013 report.

(U) Recommendation 4. We recommend that the Chief Information Officer ensure that
procedures as stated within the Broadcasting Board of Governors Computer Security Incident
Management Policy are followed to ensure that security incidents are properly reported, as
required by the United States Computer Emergency Readiness Team’s Federal Incident
Reporting Guidelines.

(U) Status: Closed. We reviewed the security incidents to ensure that they were properly
reported to US-CERT.

                                         25
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



(U) Recommendation 5. We recommend that the Chief Information Officer develop and
implement a formal sanction process for personnel who do not successfully complete the security
awareness training, as required by the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

(U) Status: Closed. BBG developed a formal sanction process to disable user accounts for users
who had not taken the Cyber Security Awareness training by the final due date. We inspected a
sample of users, without exceptions, for the FY 2013 Cyber Security Awareness training to
ensure that they had taken their training by the due date.

(U) Recommendation 6. We recommend the Chief Information Officer ensure that the
Broadcasting Board of Governors Plans of Action and Milestones program is developed in
accordance with its policy, which requires the Broadcasting Board of Governors Plans of Action
and Milestones to include the data elements found in Office of Management and Budget
Memorandum M-02-01.

(U) Status: Closed from FY 2012 report; this repeat recommendation has become
Recommendation 7 (Finding E) in the FY 2013 report.

(U) Recommendation 7. We recommend that the Chief Information Officer implement
procedures to assess the adequacy of the security configurations of third-party devices that
request access to the Broadcasting Board of Governors network and grant access only to properly
configured devices, as required by the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

(U) Status: Closed from FY 2012 report; this repeat recommendation has become
Recommendation 8 (Finding F) in the FY 2013 report.

(U) Recommendation 8. We recommend that the Chief Information Officer ensure that the
Information Technology Director create and implement a standardized process to collect
information used to develop and subsequently update the Broadcasting Board of Governors
system inventory and update the general support system’s security plan control for CM-8,
“Information System Component Inventory,” specifically, the organizationally defined frequency
of inventory assessments, as required by the National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

(U) Status: Closed. A full implementation of BBG’s system inventory has been completed for the
agency within the FootPrints application at BBG. We compared the BBG FISMA Information
Systems and Accreditation Boundaries within the agency with the current list of systems
provided by BBG and noted no discrepancies.

(U) Recommendation 9. We recommend that the Chief Information Officer ensure that the
Director of Disaster Recovery and Business Continuity develop and implement contingency
planning policies and procedures, develop contingency plans for the Broadcasting Board of
Governors infrastructure (network) and its major systems, provide contingency planning training
to personnel who are responsible for the recovery of the network and systems, perform periodic

                                         26
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

testing of the Broadcasting Board of Governors contingency plans, and update the plan based on
lessons learned as required by National Institute of Standards and Technology Special
Publication 800-34, Revision 1.

(U) Status: Closed from FY 2012 report; this repeat recommendation has become
Recommendation 5 (Finding C) in the FY 2013 report.




                                        27
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                                                                       (U) Appendix C




                                       .. Broadcasting Board of Governors
                                         THE DIRECTOR OF THE
                           U.S. INTERNATIONAL BROADCASTING BUREAU



                                                   October I 0, 2013

Mr. Steve A. Linick
Inspector General
Department of State

Dear Mr. Linick:

This is in response to the Office of Inspector General (OIG) draft report titled "Audit of the
Broadcasting Board of Governors Information Security Program", Report Number AUD-IT-IB-
13-XX issued September 2013.

The Broadcasting Board of Governors (BBG) has reviewed the report and provides its
concurrence to all recommendations as noted on the enclosure.

We thank you for the oppo11unity to respond to the report. If you have any questions, please feel
                                                         [Redacted] (b) (2), [Redacted] (b) (6)
free to contact Ms. Carol Prahl at (202) 203-                        or Ms. Kelu Chao, Director, IBB Office of
                                    [Redacted] (b) (2), [Redacted] (b) (6)
Performance Review at (202) 203-




Enclosure: As Stated




                 Cohm Building    •   330 Indepmdmce Aw:nue, SW       •     Washington, DC 20237




                                      28
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                                                                      Enclosure


  BBG's Response to OIG's "Audit of the Broadcasting Boa rd of Governors Information
                                                                                                    I!
                                Security Program,"                                                  l
                 Report Number AUD-IT-IB-13-:XX, September 2013
                                                                                                    I
Recommendation 1: OIG recommends that the System Owners, Information Owners, and the
Chieflnformation Officer/Chief Technology Officer assess the data categorization for
                                                                                                    I
                                                                                                    f
information systems, in accordance with Federal Information Processing Standard 199, and
implement the corresponding National l nstituteofStandards and Technology Special Publication
800-53, Revision 3, controls, if necessary.
                                                                                                    I
TS I Response (October 11, 2013): BBG concurs. The BBG will work to ensure all FISMA
systems arc properly categorized and have implemented all t he necessary security controls
as provided in the National Institute of S tandards a nd Technology (N 1ST) S pecial
Publication 800-53, Revision 3.

Recommendation 2: OIG recommends that the System Owners and Chief Information
                                                                                                    I
                                                                                                    II
Officer/Chief Technology Officer prioritize resources to perform security impact analyses to
assess the differences in National Institute of Standards and Technology Special Publication 800-
53, Revision 3, control families and their impact to the state of security on the systems and
reauthorize the systems.

TSI Response !October II , 2013): BBG concurs. The BBG will update Security
                                                                                                    r
Assess ment Reports and Risk Assessment Reports for all BBG FISMA systems to ensure                 I

that all systems can be reauthorized per OIG's recommendation.

Recommendation 3: OIG recommends that the Broadcasting Board of Governors prioritize
resources to perform a privacy impact assessment for the Privacy Information Enclave in
accordance with Office of Management and Budget Memorandum M-12-20.

TSI Response (October II, 2013): BBG concurs. The CIO will prioritize resources to
ensure this privacy impact analysis is completed.

Recommendation 4: OIG recommends that the Chieflnformation Officer/Chief Technology
Officer, in coordination with the Information Security Management Division, fmalize and
implement an enterprise-wide continuous monitoring strategy that includes a continuous
monitoring policy and assesses the security state of information systems in a manner consistent
with Federal Information Security Management Act requirements, Office of Management and
Budget policy, and applicable National Institute of Standards and Technology guidelines.

T SI Response (October II , 20 13): BBG concurs. The Agency is •·evicwi ng the t·ecently
released NIST SOU-53 Revision 4 ~u id ancc and plans to implement the new features and
flexibility of this guidance in BBG's continuous monitoring program, policies. and
procedures. In addition, BBG is participating in the Continuous Diagnostic Mitigation




                                   29
                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




(C D ~I ) progra m sponsored by the Depa rtmen t of Homela nd Securi ty ( DI~ S). T he BBC
feels t he C OI\1 progra m w ill strengthen the BBC's interna l monitori ng controls.

Recommendation 5: OIG recommends that the Chieflnformation Officer/ChiefTechnology
Officer prioritize resources to complete entity-wide and system specific contingency planning
documents for all information systems, and conduct necessary testing in accordance with
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-34,
Revision I, and NIST SP 800-53, Revision 3.

TS I Response (October II. 20 13): BBC concurs. The BBC 's Disaster Recovery and
Business Continuity Manager will continue with policy development nnd planning to
address deficiencies. The CIO will continue to monitor progress with dr:tfl policies a nd
procedures.

Recommenda tion 6: OIG recommends that the Information Security Management Division
update and implement its incident response policy in accordance with National Institute of
Standards and Technology Special Publication 800-61 , Revision 2.

TSI Response (October· II, 2013): BBC concurs. The CIO w ill continue to expand on its
policies a nd workflows to implement its current policies.

Recommendation 7: OIG recommends the Chieflnformation Officer/ChiefTechnology Officer
ensure that Broadcasting Board of Governors Plan of Action and Milestones (POA&M) include
all required elements in accordance with its Information Security POA&M Policy, to include
severity of the weakness, responsible organization, estimated funding resources, completion date,
key milestones and changes, source of the weakness, and the status.

TSI Response (October II , 2013): BBC concurs. T he C IO will C"-pand o n the da ta
clements contained in the POA&I\1 tracking sheet as efforts cont inue to mature the internal
IT project governance.

Recommendation 8: OIG recommends that the Enterprise Networks and Storage Division,
under the Office ofthe Chieflnformation Officer/Chief Technology Officer, implement
procedures to assess the adequacy of the security configurations of mobile computers that
request access to the Broadcasting Board of Governors network and grant access only to properly
configured and patched devices in accordance wit h National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

TS I Response !October II. 2013) : BBC concurs. The BBC has acquired a network access
control management tools a nd configuration I implementa tion of this tool is pending.

Recommendation 9: OIG recommends that the Chieflnformation Officer/ChiefTechnology
Officer verify that U.S. Government Configuration Baseline configuration standards are
implemented and compliance with the implemented standards is periodically assessed in
accordance with National Institute of Standards and Technology Special Publication 800-53,
Revision 3.

                                               1




                                  30
                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                                                                                                   ,
                                                                                                   I
                                                                                                   I



TSI Response (October I I. 2013): BBC concurs. BBC plans to usc t he ruonitorin~
technology made available through DHS 's C D:\1 pro~ram to verify implemcntntion nnd
                                                                                                   Il
eomplinnce of configuration standnrds in necordanee "ith 1\ IST Special Publication 800-
S:l. Revision 3.                                                                                   i
                                                                                                   I
Recommendation 10: OIG recommends that the Chief Information Officer/ChiefTechnology
Officer follow the Broadcasting Board of Governors Change Management Policy, to ''test and
disseminate Microsoft operating system and application patches released on the second Tuesday
of each month in a way that ensures complete coverage of workstations and laptops while
avoiding operational downtime by rigorously testing the patches prior to general release to
ensure app lication compatibility and seamless functionality."

TS I Response (October I I, 2013): BBC concurs. BUG plans to usc the same DHS
monitorin g technology t·eferred to in response to O IC recommendntion #9 to a ddress the
monthly vulnerability in the a~ency 's workstations and ser vers.

Recommendation 11: OIG recommends that the Chief Information Officer/Chief Technology
Officer and system owners ensure that user accounts are properly maintained in accordance with
Broadcasting Board of Governors {BBG) Identification and Authentication Policy and the
BBGIIBBNOA Password Policy.

T SI Response (October I I, 20 13): BBC concurs. The C IO a nd s~stem owners witt revie"
and strengthen IT processes that manage user accounts in a ccordance" ith BBC policies.
BBC expects that these strengthened processes" ill eliminate the small number of account
violations tha t stiU exist.

Recommendation 12: OIG recommends that the Office of Securit y, in coordination with the
Chief Information Officer/Chief Technology Officer, complete the issuance of Personal Identity
Verification cards as required by Homeland Security Presidential Directive 12.

TS I Response (October I I, 20 13): BBG concu t·s. The BBG agrees to accelerate issuance
of PIV cards to its employees and contractors as much as practical wi thin the budget
constra ints imposed on the Age ncy. The CIO will continue to assess p ro~-t ress and develop
extensions into logical access control for t he Agency.

Recommendation 13: OIG recommends that the Information Security
Management Division, in coordination with the Chieflnformation Officer/ChiefTechnology
Officer, prioritize resources to develop and implement a role-based security training program in
accordance with National Institute of Standards and Technology Special Publication 800-53,
Revision 3.

TSI Response !October I I. 2013): BBC concurs. The C IO \\ill take steps to develop and
implement a ro le-hased IT security progn1m. \\ ithin hudget;lry limitations. in accordance
with NIST guidance. durin g FY 20 1-t.

                                                2




                                   31
                       SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
